No. 19-943
In The

Supreme Court of tfte ffflntteb g>tateg
ALIREZA VAZIRABADI
Petitioner,
v.
DENVER HEALTH, et al„
Respondents.
PETITION FOR REHEARING
PROOF OF SERVICE DECLARATION, UNDER 28 U.S.C. § 1746
I, Alireza Vazirabadi, do hereby declare that on April 16, 2020, as required by the
Supreme Court Rule 29, I have served Respondents’ (Defendants’) attorney in the
above proceeding three hard copies booklets of PETITION FOR REHEARING, by
submitting a package containing three booklets at the United States Post Office with
postage prepaid to the mailing address below. I also emailed the same booklet in PDF
format to the Respondents’ attorney email, as well as third parties listed below.
Defendants’/Respondents’ Attorney
Harris, Karstaedt, Jamison & Powers, P.C. Email
Susan Stamm, Attorney
SStamm@hkjp.com
Lorie Gettman, Legal Assistant
lgettman@hkjp.com
Melody Lowman, Legal Assistant
mlowman@hkjp.com
Phone: 720-875-9140, Fax: 720-875-9141
10333 E. Dry Creek Road, Suite 300, Englewood, CO 80112
Interested Parties
Email
Littler Mendelson, P.C.
jharpole@littler.com
Gartner, Inc., CEB
Jennifer S. Harpole, Attorney
1900 Sixteenth Street, Suite 800, Denver, CO 80202
Forensic Pursuit
robert.kelso@forensicpursuit.com
Mr. Robert Kelso
2000 Arapahoe Street, Suite 1, Denver, CO 80205
I, Alireza Vazirabadi, pursuant to 28 U.S.C. § 1746, under penalty of perjury, declare
that the foregoing statement is true and correct.
Executed on April 16, 2020.

Alireza Vazirabadi
843 Vaughn St.
Aurora, CO 80011
avazirab adi@y ahoo .com
720-218-4769

